APPENDIX A
11

United States v. Cruz-Bermudez, 847 Fed.Appx. 436 (2021)

847 Fed.Appx. 436
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.

Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.
West Headnotes (3)
[1]

Constitutional Law
Asylum, refugees, and
withholding of removal

UNITED STATES of America, Plaintiff-Appellee,
v.
Carlos Elias CRUZ-BERMUDEZ, aka
Carlos Elias Bermuda Cruz, aka Carlos Cruz
Bermudez, aka Carlos Elias Bermudez, aka
Carlos Elias Cruz Bermudez, aka Carlos
E. Cruz-Bermudez, Defendant-Appellant.

Noncitizen who pleaded guilty to illegal reentry was not entitled to asylum when he
first entered United States without inspection,
and thus his prior removal order, from which
noncitizen had sought relief only on grounds
of asylum, did not violate due process and did
not prejudice noncitizen; noncitizen admitted
to an immigration judge that he did not fear
persecution or torture if he returned to his
home country, and noncitizen had been convicted
of two aggravated felonies by time when his
immigration proceedings were resolved and
he was deported. U.S. Const. Amend. 14;

No. 19-50314
|
Submitted February 2, 2021 * Pasadena, California
|
FILED March 01, 2021
Synopsis
Background: Noncitizen who had been convicted of multiple
felonies after being given temporary protected status while his
appeal of his deportation was pending, and who subsequently
was deported, re-entered United States, was charged with
committing another crime, and moved to dismiss indictment
based on alleged due process defects in prior removal
proceeding. The United States District Court for the Central
District of California, David O. Carter, J., denied noncitizen's
motion. Noncitizen ultimately pleaded guilty to illegal reentry. Noncitizen appealed.

Aliens, Immigration, and
Citizenship
Asylum, Refugees, and
Withholding of Removal

Immigration and Nationality Act § 276,
8
U.S.C.A. § 1326(d); Cal. Veh. Code § 10851.

[2]

Aliens, Immigration, and
Citizenship
Denial of Admission and
Removal
Aliens, Immigration, and
Citizenship
Asylum, Refugees, and
Withholding of Removal
Constitutional Law
exclusion; deportation

Holdings: The Court of Appeals held that:
[1] noncitizen was not entitled to asylum;
[2] prior removal order was not fundamentally unfair; and
[3] noncitizen was precluded from challenging validity of
prior removal order.
Affirmed.

Admission and

Noncitizen's prior removal order was not
fundamentally unfair, did not violate due
process, and did not prejudice noncitizen,
although he had been given temporary protected
status while his appeal of his deportation was
pending; noncitizen's temporary protected status
properly terminated due to his convictions for
two aggravated felonies, immigration judge
properly and fully complied with Board
of Immigration Appeals' (BIA) remand, and
noncitizen failed to show that he would have

© 2021 Thomson Reuters. No claim to original
12 U.S. Government Works.

1

United States v. Cruz-Bermudez, 847 Fed.Appx. 436 (2021)

been granted asylum or any other form of
deportation relief, for which he was ineligible.
U.S. Const. Amend. 14; Immigration and
Nationality Act § 276,

[3]

8 U.S.C.A. § 1326(d).

Aliens, Immigration, and
Citizenship
Exhaustion of remedies in
general
Aliens, Immigration, and
Citizenship
Right of review or
intervention; standing
Noncitizen who pleaded guilty to illegal re-entry
was precluded from challenging validity of prior
removal order; noncitizen failed to demonstrate
that he exhausted his administrative remedies
or that his immigration proceeding denied him
judicial review, and noncitizen, at a hearing on
his prior immigration proceedings, had made a
waiver of his right to appeal removal order that
was considered, intelligent, and made with actual
knowledge of his right to appeal. Immigration
and Nationality Act § 276,
1326(d)(1),

8 U.S.C.A. §§

1326(d)(2).

In 1998, Carlos Elias Cruz-Bermudez (“Cruz”) entered
the United States without inspection. He was placed
in immigration proceedings and ordered deported. Cruz
appealed, and while the appeal was pending, he was given
Temporary Protected Status (“TPS”). From 2003 to 2005,
Cruz was convicted of multiple felonies. Cruz's immigration
proceedings were reinstated in 2007, and he was again
ordered deported. Cruz also waived his right to file a second
appeal.
Cruz re-entered the United States without inspection and in
2018 committed still another crime. He was then federally
prosecuted, and he pleaded guilty to re-entering the United
States in violation of
8 U.S.C. § 1326. Cruz filed a motion
to dismiss the indictment, and the motion was denied by
the district court. As part of his plea agreement, Cruz could
appeal the district court's denial of his motion to dismiss the
indictment based on what Cruz alleged to be due process
defects in the prior removal proceeding. This appeal followed.
We review the denial of a
§ 1326(d) motion de novo,
but the underlying findings of fact are reviewed for clear
error.
United States v. Sandoval-Orellana, 714 F.3d 1174,
1178 (9th Cir. 2013). The Court also reviews de novo the
determination of whether a prior conviction is an aggravated
felony.
United States v. Bonilla-Montenegro, 331 F.3d
1047, 1049 (9th Cir. 2003).

*437 Appeal from the United States District Court for the
Central District of California, David O. Carter, District Judge,
Presiding, D.C. No. 8:18-cr-00247-DOC-1
Attorneys and Law Firms
L. Ashley Aull, Assistant U.S. Attorney, Daniel Lim,
Assistant U.S. Attorney, DOJ - Office of the U.S. Attorney,
Los Angeles, CA, Bradley Edward Marrett, AUSA - Office
of the U.S. Attorney, Santa Ana, CA, for Plaintiff-Appellee
Marisa Conroy, Law Office of Marisa L. D. Conroy,
Encinitas, CA, for Defendant-Appellant
Before: GOULD, LEE, and VANDYKE, Circuit Judges.

To determine whether convictions are aggravated felonies at
the time of the 2007 hearing, we employ the two-part test set
forth in
Taylor v. United States, 495 U.S. 575, 110 S.Ct.
2143, 109 L.Ed.2d 607 (1990). In the first step, called the
“categorical approach,” an offense is an aggravated felony
if, on the face of the statute of conviction, “the full range of
conduct covered ... falls within the meaning of [an aggravated
felony].”
Penuliar v. Gonzales, 435 F.3d 961, 966 (9th
Cir. 2006) (citation omitted), cert. granted, judgment vacated,
*438 549 U.S. 1178, 127 S.Ct. 1146, 166 L.Ed.2d 992
(2007). But if the statute of conviction reaches both conduct
constituting an aggravated felony and conduct that would
not do so, we employ the second step, called the “modified
categorical approach.”

MEMORANDUM **

Id.

When charged with illegal reentry under
8 U.S.C. § 1326,
a defendant has a limited right to bring a collateral attack
challenging the validity of his underlying removal order. See

© 2021 Thomson Reuters. No claim to original
13 U.S. Government Works.

2

United States v. Cruz-Bermudez, 847 Fed.Appx. 436 (2021)

United States v. Ubaldo-Figueroa, 364 F.3d 1042, 1047–
48 (9th Cir. 2004). To succeed under
8 U.S.C. § 1326(d),
a defendant must demonstrate that: (1) he “exhausted any
administrative remedies that may have been available to seek
relief against the order”; (2) “the deportation proceedings at
which the order was issued improperly deprived [him] of the
opportunity for judicial review”; and (3) “the entry of the
order was fundamentally unfair.”

8 U.S.C. § 1326(d).

To satisfy the third requirement, a defendant must establish
both (1) a violation of his due process rights from defects in
the underlying removal proceeding, and (2) prejudice flowing
from those defects.
Ubaldo-Figueroa, 364 F.3d at 1048.
Further, the defendant has the burden to prove prejudice
under
§ 1326(d)(3).
United States v. Gomez, 757 F.3d
885, 898 (9th Cir. 2014). To meet his burden, an alien
must demonstrate it was “ ‘plausible’ that he would have
received some form of relief from removal had his rights not
been violated in the removal proceedings.”
Id. (citation
omitted). A showing of plausibility requires a showing greater
than “mere possibility or conceivability.”
United States. v.
Valdez-Novoa, 780 F.3d 906, 915 (9th Cir. 2015) (citations
omitted). To demonstrate prejudice, an alien must show that
he is not barred from receiving relief. If he is barred from
receiving relief, his claim is not plausible.
at 898.

Gomez, 757 F.3d

For the following reasons, we affirm Cruz's conviction. First,
even if Cruz could satisfy the procedural requirements of
§ 1326(d)(1) and (2), his arguments are incorrect because
his removal order was not fundamentally unfair. Cruz's only
basis for relief from removal, which he sought in his removal
proceeding and in the district court, was asylum. Both the IJ
and district court properly held that Cruz was not entitled to
asylum.

[1] There are two reasons for this. First, Cruz did not
demonstrate a credible fear of persecution or torture. See
Mejia v. Ashcroft, 298 F.3d 873, 879 (9th Cir. 2002). He
told the IJ that he did not fear persecution or torture if returned
to El Salvador. Second, by 2007, Cruz had been convicted
of two aggravated felonies. One would have been enough
to disqualify him for asylum. The district court properly
concluded that Cruz's car theft convictions under California
Vehicle Code § 10851 were aggravated felonies. Because
Cruz did not qualify for asylum, there was no due process
violation, and thus no prejudice.
[2] Second, Cruz has not shown any fundamental unfairness.
Cruz's TPS was properly terminated due to his felony
convictions. The IJ properly and fully complied with the
BIA's remand. Finally, Cruz was ineligible for other forms
of deportation relief. The IJ's actions did not constitute due
process violations. Also, Cruz did not suffer prejudice. None
of Cruz's arguments persuasively show that he would have
been granted asylum or any of the other forms of relief.
[3] Finally, Cruz cannot satisfy the requirements of
§
1326(d)(1) or (2), because Cruz did not demonstrate that
he exhausted his administrative remedies, and that his
immigration proceeding denied him judicial review. Cruz
waived his right to *439 appeal the removal order at his 2007
immigration hearing. Further, this waiver was considered,
intelligent, and made with actual knowledge of his right to
appeal.
AFFIRMED.
All Citations
847 Fed.Appx. 436

Footnotes
*
**

The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App.
P. 34(a)(2).
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit
Rule 36-3.

© 2021 Thomson Reuters. No claim to original
14 U.S. Government Works.

3

United States v. Cruz-Bermudez, 847 Fed.Appx. 436 (2021)

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original
15 U.S. Government Works.

4

APPENDIX B

16

§ 1326. Reentry of removed aliens, 8 USCA § 1326

United States Code Annotated
Title 8. Aliens and Nationality (Refs & Annos)
Chapter 12. Immigration and Nationality (Refs & Annos)
Subchapter II. Immigration
Part VIII. General Penalty Provisions
8 U.S.C.A. § 1326
§ 1326. Reentry of removed aliens
Effective: September 30, 1996
Currentness
(a) In general
Subject to subsection (b), any alien who-(1) has been denied admission, excluded, deported, or removed or has departed the United States while an order of exclusion,
deportation, or removal is outstanding, and thereafter
(2) enters, attempts to enter, or is at any time found in, the United States, unless (A) prior to his reembarkation at a place outside
the United States or his application for admission from foreign contiguous territory, the Attorney General has expressly
consented to such alien's reapplying for admission; or (B) with respect to an alien previously denied admission and removed,
unless such alien shall establish that he was not required to obtain such advance consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2 years, or both.
(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection-(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs, crimes
against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title 18, imprisoned
not more than 10 years, or both;
(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined under
such title, imprisoned not more than 20 years, or both;
(3) who has been excluded from the United States pursuant to section 1225(c) of this title because the alien was excludable
under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the provisions of
subchapter V, and who thereafter, without the permission of the Attorney General, enters the United States, or attempts to
do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall not run concurrently with
any other sentence. 1 or
© 2021 Thomson Reuters. No claim to original
17 U.S. Government Works.

1

§ 1326. Reentry of removed aliens, 8 USCA § 1326

(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without the
permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless the Attorney
General has expressly consented to such alien's reentry) shall be fined under Title 18, imprisoned for not more than 10 years,
or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal during
(or not during) a criminal trial under either Federal or State law.
(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) 2 of this title who enters, attempts to enter, or is at any time found in, the
United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for the remainder
of the sentence of imprisonment which was pending at the time of deportation without any reduction for parole or supervised
release. Such alien shall be subject to such other penalties relating to the reentry of deported aliens as may be available under
this section or any other provision of law.
(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not challenge the validity of the deportation order described in
subsection (a)(1) or subsection (b) unless the alien demonstrates that-(1) the alien exhausted any administrative remedies that may have been available to seek relief against the order;
(2) the deportation proceedings at which the order was issued improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.
CREDIT(S)
(June 27, 1952, c. 477, Title II, ch. 8, § 276, 66 Stat. 229; Pub.L. 100-690, Title VII, § 7345(a), Nov. 18, 1988, 102 Stat.
4471; Pub.L. 101-649, Title V, § 543(b)(3), Nov. 29, 1990, 104 Stat. 5059; Pub.L. 103-322, Title XIII, § 130001(b), Sept. 13,
1994, 108 Stat. 2023; Pub.L. 104-132, Title IV, §§ 401(c), 438(b), 441(a), Apr. 24, 1996, 110 Stat. 1267, 1276, 1279; Pub.L.
104-208, Div. C, Title III, §§ 305(b), 308(d)(4)(J), (e)(1)(K), (14)(A), 324(a), (b), Sept. 30, 1996, 110 Stat. 3009-606, 3009-618
to 3009-620, 3009-629.)

Footnotes
1

So in original. The period probably should be a semicolon.

© 2021 Thomson Reuters. No claim to original
18 U.S. Government Works.

2

§ 1326. Reentry of removed aliens, 8 USCA § 1326

2

So in original. Section 1252 of this title, was amended by Pub.L. 104-208, Div. C, Title III, § 306(a)(2), Sept. 30, 1996,
110 Stat. 3009-607, and as so amended, does not contain a subsec. (h); for provisions similar to those formerly contained
in section 1252(h)(2) of this title, see 8 U.S.C.A. § 1231(a)(4).
8 U.S.C.A. § 1326, 8 USCA § 1326
Current through PL 117-26 with the exception of PL 116-283, Div. A, Title XVIII, which takes effect January 1, 2022.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original
19 U.S. Government Works.

3

